BECKER GALLAGHER
Briefs

and

I

Records

DONNA ). WOLF, J.D.
JULIE

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief ofAmicus Curiae
RISA Bermuda in Support of Petitioner in 19-277,
HSBC Holdings PLC, et al. v. Irving H. Picard, were
sent via Three Day Service to the U.S. Supreme Court,
and 3 copies were sent via Three Day Service and email to the following parties listed below, this 30th day
of September, 2019:
Thomas J. Moloney
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, NY 10006
(212) 225-2460
tmoloney@cgsh.com

Counsel for Petitioners
Roy T. Englert Jr.
Robbins, Russell, Englert, Orseck,
Untereiner & Sauber LLP
2000 K Street, N.W
4th Floor
Washington, DC 20006
(202) 775-4503
renglert@robbinsrussell.com

Counsel for Respondent
Irving H. Picard

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

Kevin H. Bell
Nathanael S. Kelley
Securities Investor Protection Corporation
1667 K Street, NW
Suite 1000
Washington, DC 20036
(202) 371-8300
kbell@sipc.org
nkelley@sipc.org

Counsel for Securities Investor
Protection Corporation
S. Christopher Provenzano
Counsel of Record
Michael A. Granne
Jennifer Bader
Provenzano Granne & Bader LLP
1330 Avenue of the Americas
Suite 23A
New York, NY 10019
(212) 859-3516
chris.provenzano@pgbfirm.com

Counsel for Amicus Curiae
RISA Bermuda

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 30, 2019.

Wf

0

DonnaJ.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

NotarY~licc

<)L

[seal]

JULIE ANNE KERSHNER
Notary Public, State of Ohio
My Commission Expires
February 21, 2023

